SJntteb States Court of Appeals
Jfor tljc ^ebentlj Circuit
Cfjicaso, Hflltnots 60604
May 7, 2020
Before:
Diane P. Wood, Chief Circuit Judge
William J. Bauer, Circuit Judge
liana Diamond Rovner, Circuit Judge
CONDRA L. SMITH,
Plain tiff-Appellant,
No. 20-1069

v.

UNITED STATES DEPARTMENT OF
EDUCATION, et al.,
Defendants-Appellees.

] Appeal from the United
] States District Court for
] the Northern District
] of Indiana, Fort Wayne
] Division.
]

] No. 1:18-cv-00348-HAB-SLC
]

] Holly A. Brady,
] Judge.
ORDER
This matter comes before the court on consideration of the status reports filed by
the appellees on March 5, 2020, and Appellant's] Statement for Why This Appeal
Should Not be Dismissed filed on March 16, 2020, and review of the district court's
order of February 25, 2020,
Rule 4(a) of the Federal Rules of Appellate Procedure requires that a notice of
appeal in a civil case in which the United States is a party be filed in the district court
within 60 days of the entry of the judgment or order appealed. In this case judgment
was entered on August 27, 2019, and the notice of appeal was filed on January 9, 2020,
well over two months late. The district court denied appellant's request to reopen the
appeal period, see Rule 4(a)(6), and this court is not empowered to reopen the time to
appeal.

No. 20-1069

Page 2

Further, we conclude that the district court did not abuse its discretion in
denying appellant's motion to reopen the time to appeal. See Marchiando, 13 F.3d 1111,
1115 (7th Cir. 1994) (district court's decision whether or not to reopen the time to appeal
as a discretionary call). Accordingly,
IT IS ORDERED that this appeal is DISMISSED for lack of jurisdiction.

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 1 of 13

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
FORT WAYNE DIVISION
CONDRA SMITH,
Plaintiff,
v.

CAUSE NO.: l:18-CV-348-HAB-SLC

U.S. DEPARTMENT OF EDUCATION,
et al.,
Defendants.
OPINION AND ORDER
Plaintiff Condra Smith has sued the United States Department of Education,
United Student Aid Funds ("USA Funds"), Pioneer Credit Recovery, Inc. ("PCR"), and
General Revenue Corporation ("GRC"). In the controlling pleading, the Amended
Complaint [ECF No. 48], Plaintiff alleges that she was the victim of fraudulent activity
while attending Indiana State University. According to Plaintiff, she did not authorize
Perkins or Stafford loans to be obtained in her name, and her signatures do not appear
on the relevant documents for obtaining the loans. Yet, Defendants are collecting on these
fraudulent loans through garnishment of her wages. Additionally, the Department of
'—*

Education has withheld money from her tax returns. She seeks repayment of the withheld
wages and tax return, as well as damages.
All Defendants moved for summary judgment. Plaintiff filed a Response, in which
she embedded her own motion for summary judgment. Defendants filed a Reply, which
was titled as Defendants' Consolidated Reply in Support of Motion for Summary

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 2 of 13

Judgment on the Administrative Record and Brief in Opposition to Plaintiff s Motion for
Summary Judgment. Plaintiffs response, as well as her own motion for summary
judgment, are devoid of any supporting evidence.1 For reasons stated more fully below,
the Court will grant summary judgment in favor of the Defendants and will dismiss the
claims for monetary damages.
FACTUAL BACKGROUND
Smith attended Indiana State^University between fall 2G02 and spring 2006. (ED's
Certified Administrative Record (ED R.), ECF No. 55.) During this time, she paid for her
education with a combination of scholarships, Pell Grants, cash payments, and student
loans. (ED R. at 11-15) Among these student loans were a collection of Stafford loans
taken out under the Federal Family Education Loan Program pursuant to a Federal
Stafford Loan Master Promissory Note dated January 3, 2004 (the "Promissory Note").
(ED R. at 11-15,62.) The Promissory Note included language that would permit multiple
loans to be made under the Note. The guarantor of the loans is USA Funds. Additional
loan authorizations were made pursuant to the Promissory Note in subsequent years;
Plaintiff authorized these amounts and received notices each semester notifying her of
the disbursements, (ED R. at 11-15, 31-41.) Plaintiff also received and was provided
written acknowledgement of several Perkins loans during her time at Indiana State. (ED
R. at 43-56.)

1 Because Plaintiff is proceeding without an attorney, Defendants provided the
appropriate Notices [ECF Nos. 60,63], attaching the appropriate rules governing summary
judgment, as well as advising Plaintiff that, if she did not agree with the facts in their motions,
she was required to submit affidavits or other evidence to dispute those facts.
2

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 3 of 13

In 2017, PCR, acting in its capacity as an authorized representative for USA Funds,
issued a notice to Plaintiff that her wages would be subject to garnishment to satisfy her
defaulted loans. (ECMC Administrative Wage Garnishment Record (WG R.), ECF No.
56.) Plaintiff requested a hearing on grounds that she believed someone at Indiana State
University signed her name on the loan application and promissory note without her
permission. She requested an application for discharge of her debt. After an
administrative hearing, the hearing officer concluded that Plaintiff had failed to
demonstrate that the loans in question were not valid or that USA Funds or PCR acted
improperly in pursuing garnishment of Plaintiff's wages.
On August 31, 2018, Plaintiff filed a formal Loan Discharge Application: False
Certification to USA Funds seeking a discharge of her loans based on alleged
unauthorized signatures on the applications and promissory note. An investigation was
conducted, with the conclusion that the loans were authentically Plaintiffs. When Plaintiff
was notified of the decision, she requested that the Department of Education review USA
Funds' decision.
The Department of Education reviewed the allegations and related documents. It
concluded that Plaintiff did not qualify for a loan discharge:

W

After a thorough review of your application, the U.S. Department of
Education (ED) has upheld USA Funds' determination that you do not
qualify for false certification loan discharge (unauthorized
signature/payment) for the following reasons:
• You have provided no collaborating evidence that your name
was signed fraudulently on your Federal Family Education Loan
Program (FFELP) Federal Stafford Loan Master Promissory Notice
on January 4, 2003.
3

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 4 of 13

• The promissory note contains several items of information that
assist in confirming your identity and by extension your
relationship to the loans: name, address, social security number,
date of birth and references.
• The Account Summary by Term you provided USA Funds shows
that you received FFEL Stafford student loans and federal Perkins
student loans that Indiana State University currently holds.
• ED received the enclosed documents from Indiana State
University (ISU) Student Financial Aid Office that shows you
received Federal (Stafford Loans while -you attended ISU. You ■
indicated on the Office of Student Financial Aid Federal Stafford
Loan Information Form 2004-2005 that you were not a first-time
Stafford Loan borrower at ISU and you requested that ISU use the
same lender for your federal student loans. Copies of the notices
sent to you informing you of your Federal Stafford Loan
disbursements dated: August 18, 2003, August 18, 2003, January 3,
2004, April 27, 2004, July 17, 2004, July 21, 2004, July 21, 2004,
August 6, 004, August 16, 2004, January 3, 2005, and July 6, 2005.
Ten of the financial aid notices were sent to your home address and
one notice sent to your mail box at ISU.
This indicates that you were the beneficiary of the loan(s) proceeds to pay
for your education. ED has concluded, based on tire preponderance of
evidence that these loan(s) are authentically yours. As a result of this
determination, you continue to be responsible for repayment on the loan(s).
(ED R. 63-64.)
The Department of Education paid reinsurance on Plaintiffs FFELP loans,
currently held by USA Funds and in default. On July 27,2008, USA Funds mailed Plaintiff
a TOP due process letter. Plaintiff did not object or request review.
ANALYSIS
Summary judgment is proper when the moving party "shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter

4

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 5 of 13

of law." Fed. R. Civ. P. 56(a). To survive summary judgment, a nonmovant must be able
to show that a reasonable jury could return a verdict in her favor; if she is not able to
"establish the existence of an element essential to [her] case, and on which [she] will bear
the burden of proof at trial," Celotex Carp. v. Catrett, 477 U.S. 317, 322 (1986), summary
judgment must be granted. Where the moving party is the party that would bear the
burden of proof for a claim at trial, it must "cite the facts which it believes [would]
satisf[y]" the element of its claim and "demonstrate:why the record is so one-sided as to
rule out the prospect of a finding in favor of the non-movant on the claim." Hotel 71 Mezz
Lender LLC v. Nat'l Ret. Fund, 778 F.3d 593, 601 (7th Cir. 2015).
A.

USA Funds, PCR, and GRC
USA Funds, PCR, and GRC (the "Private Defendants") moved for summary

judgment as to the allegations Plaintiff potentially brought against them related to the
decision not to discharge the debt (the Discharge Decision) and the decision to garnish
her wages (the Wage Garnishment Decision). Although they defend the merits of the
underlying administrative decisions, the Private Defendants argue that they are not
proper parties to this lawsuit. The Court will start there.
Plaintiff's Amended Complaint does not identify a statute or other source of
'•1

authority for her claims against the Private Defendants. The Defendants identify the
Higher Education Act (HEA) of 1965 as governing Plaintiffs claims. However, as they
correctly note, the HEA does not confer a cause of action by a borrower against private
entities. See Slovinec v. DePaul Univ., 332 F.3d 1068,1069 (7th Cir. 2003); see also Thomas M.
Cooley Law Sch. v. Am. Bar Ass'n, 459 F.3d 705, 710-11 (6th Cir. 2006); McCulloch v. PNC
5

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 6 of 13

Bank Inc., 298 F.3d 1217,1220-25 (11th Cir. 2002); Labickas v. Ark. State Univ., 78 F.3d 333,
334 (8th Cir. 1996); Parks Sch. of Bus. v. Symington, 51 F.3d 1480, 1484-85 (9th Cir. 1995);
L'ggrke v. Benkula, 966 F.2d 1346,1347-48 (10th Cir. 1992). Rather, the HEA is a funding
statute that does not authorize "litigation by a private plaintiff against anyone other than
the Secretary [of Education]." Slovinec, 332 F.3d at 1069; 20 U.S.C. § 1082(a)(2); see also Cliff
v. Payco Gen. Am. Credits, Inc., 363 F.3d 1113, 1123 (11th Cir. 2004) ("While the HEA
endows debtors with certain rights during the wage garnishment process, the HEA
expressly empowers only the Secretary of Education—not debtors—with the authority to
enforce the HEA and rectify HEA violations.").
Plaintiff has not pointed to any authority that would permit private enforcement
of the HEA. This is problematic, as "private rights of action to enforce federal law must
be created by Congress." Alexander v. Sandoval, 532 U.S. 275, 286 (2001). Without a
statutorily created private remedy "a cause of action does not exist and courts may not
create one, no matter how desirable that might be as a policy matter, or how compatible
with the statute." Id. at 286-87.
Plaintiffs Amended Complaint refers to "fraudulent activity while attending
Indiana State University," and all her claims appear to center around this alleged fraud.
(Amd. Compl. 1, ECF No. 48.) Accordingly, the Court will consider whether Plaintiff can
proceed on state law fraud claims. To overcome summary judgment on a claim of fraud,
Plaintiff needed to furnish evidence that the Private Defendants made a representation
of past or existing fact that that they knew to be false or that was made with reckless
disregard as to its truth or falsity. See Heyser v. Noble Roman's Inc., 933 N.E.2d 16,19 (Ind.
6

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 7 of 13

Ct. App. 2010) (setting forth elements of actual fraud). Plaintiffs allegations seem to be
that Defendants had no legal right to pursue collection of the defaulted loans because
someone else previously committed fraud. Aside from the problematic fact that this does
not allege that Defendants engaged in fraud themselves, Plaintiff has not designated
materials or cited to anything in the record that would substantiate an allegation of fraud.
Her brief contains the following conclusory, leading into nonapplicable, argument:
The undisputed facts of this case show, clearly and convincingly, that
Defendants engaged in a pattern of (1) concealment of material facts
(showing that the plaintiffs was not the borrower due her signature nor
handwriting is not on the documents); (2) intentionally and fraudulently
obtaining money from plaintiffs; and (3) making promises without any
intention of performing them (returning money that should not have been
taken during an investigation), thereby depriving Plaintiffs of their dollars.
Defendant and his principals knew, or should have known, the nature and
background of the Plaintiff's] investments, and those who had been
involved with them. Plaintiffs were lulled into complacency, maintaining
their accounts when they still could have mitigated their losses, and
continued to pay 'management fees' on values which were fiction.
(PL's Opp'n Br. 13, ECF No. 64 (errors in original).)
"[A] party opposing a summary judgment motion must inform the district court
of the reasons why summary judgment should not be entered." Riley v. City of Kokomo,
909 F.3d 182 (7th Cir. 2018) (citing Domka v. Portage Cty., 523 F.3d 776,783 (7th Cir. 2008);
.A

'

‘

-v*

t

v

see also Marion v. Radtke, 641 F.3d 874, 876-77 (7th Cir. 2011) ("When a plaintiff fails to
produce evidence, the defendant is entitled to judgment; a defendant moving for
summary judgment need not produce evidence of its own.") (citing Celotex Corp. v.
Catrett, 477 U.S. 317 (1986)); Goodpaster v. City of Indianapolis, 736 F.3d 1060,1075 (7th Cir.
2013) (holding that the plaintiffs had waived claims where they did not respond to

7

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 8 of 13

defendant's arguments and "did not provide the district court with any basis to decide"
them).
Plaintiff was required to marshal and present the court with the evidence on which
a reasonable jury could rely to find in her favor. See AA Sales & Assocs., Inc. v. Coni-Seal,
Inc., 550 F.3d 605, 613 (7th Cir. 2008). She has not done so. In short, Plaintiffs claims
against the Private Defendants fail because she identifies no source of federal law that
would support a private cause of action. With respect to any common law fraud claims
that she has attempted to advance, Plaintiff puts forth no evidence that would enable a
reasonable jury to find that the Private Defendants engaged in fraud. Because Plaintiff
has not presented the Court with evidence on which a reasonable jury could rely to find
in her favor, see Goodman v. Nat'l Sec. Agency. Inc., 621 F.3d 651, 654 (7th Cir. 2010), the
Private Defendants are entitled to judgment as a matter of law.
B.

The Department of Education
Plaintiffs Amended Complaint, filed on May 2,2019, does not expressly reference

judicial review under the Administrative Procedures Act (APA). The Department of
Education analyzed the Plaintiffs claim as a challenge to a final agency decision (the
Discharge Decision), subject to review under the APA, 5 U.S.C. § 701 et seq. The
Department of Education was not the holder of the loans for which garnishment was
obtained, so Plaintiff cannot state a claim against the Department of Education for return
of any funds administratively garnished. With respect to a third agency decision, the
referral of her defaulted student loans to Treasury for offset under the Treasury Offset

8

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 9 of 13

Program (TOP), Plaintiff did not pursue administrative remedies, so judicial review is
not available.
1.

Review of Agency Decision

Where a court reviews an agency decision under the APA, it must "decide all
relevant questions of law, interpret constitutional and statutory provisions, and
determine the meaning or applicability of the terms of an agency action." 5 U.S.C. § 706.
¥

"The.factfinding capacity of the district court is. thus typically unnecessary to judicial
review of agency decisionmaking." Fla. Power & Light Co. v. Lorion, 470 U.S. 729, 744
(1985). For this reason, "judicial review of an agency's final determination follows
standards quite different from those applied in a typical summary judgment
proceeding." J.N. Moser Trucking, Inc. v. U.S. Dep't of Labor, 306 F. Supp. 2d 774,781 (N.D.
Ill. 2004). Review is based solely on the record in the administrative proceeding below,
and the court does not take or consider new evidence. Hunger v. Leininger, 15 F.3d 664,
669 (7th Cir. 1994).
Under the APA, a court may not set aside an administrative decision unless it is
"arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with the
law." 5 U.S.C. § 706(2)(A). In determining whether an agency decision is arbitrary or
capricious, a court considers "whether the decision was based on a consideration of the
relevant factors and whether there has been clear error of judgment." Ind. Forest All., Inc.
v. U.S. Forest Sens., 325 F.3d 851, 858-59 (7th Cir. 2003) (quoting Marsh v. Or. Nat'l Res.
Council, 490 U.S. 360,378 (1989)). When an agency makes a decision, it

9

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 10 of 13

'must examine the relevant data and articulate a satisfactory explanation
for its action including a rational connection between the facts found and
the choice made.' Motor Vehicle Mfrs. Assn, of United States, Inc. v. State Farm
Mut. Automobile Ins. Co., 463 U.S. 29, 43 (1983) (internal quotation marks
omitted). That requirement is satisfied when the agency's explanation is
clear enough that its 'path may reasonably be discerned.' Bowman Transp.,
Inc. v. Arkansas-Best Freight System, Inc., 419 U.S. 281,286 (1974).
Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117, 2125 (2016) (parallel citations omitted).
"Before concluding that a decision was arbitrary and capricious, a court must be very
confident that die decisionmaker overlooked something important or-seriously-erred in
appreciating the significance of the evidence." Patterson v. Caterpillar, Inc., 70 F.3d 503,505
(7th Cir. 1995).
In 1992, Congress created a duty on the part of the Secretary of Education to
discharge the student loans of falsely certified students. 20 U.S.C. § 1087(c). The
implementing regulations provide that borrowers may obtain false-certification
discharges by proving that the signatures on their loan documents are unauthorized. 34
C.F.R. § 682.402(e).
In her Loan Discharge Application, Plaintiff alleged that the loan documents did
not contain her signature, but that an unknown person at Indiana State University had
signed the papers. She claimed to have never received the money from the loans. Plaintiff
was advised that she was required to attach to her Loan Discharge Application
documents containing four other samples of her signature.
To show that the signatures on her loans were unauthorized, Plaintiff was required
to provide the specimens of her signature. 34 C.F.R. § 682.402(e)(3). She did not do so.
Neither did she present, nor the Department of Education discover, any other evidence
10

.*

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 11 of 13

of loan origination violations at Indiana State University during the time frame
corresponding to Plaintiffs enrollment.
Contrasting the absence of any evidence substantiating Plaintiffs claim that her
signature did not appear on the documents, and that she did not benefit from the loans,
was substantial evidence that Plaintiff both authorized and received the benefit of the
loans. The Department of Education reviewed documentation showing the deposit of the
loan-funds into Plaintiffs student'account-Her signatures appeared on the documents
authorizing the use of the federal funds. These documents included the January 4, 2003,
Promissory Note, loan requests, and disclosure forms. These documents not only
contained very similar signatures, but also contained personal information, such as
addresses, Social Security numbers, and references connected to Plaintiff. The account
summaries from Indiana State University that detailed Plaintiffs charges and payments
revealed that the scholarships and grants Plaintiff received were not sufficient to cover
her expenses. The loans were used to pay the difference. Each semester, Indiana State
University's Office of Student Financial Aid sent notices to Plaintiff informing her that
the loans were begin taken out.
The Court finds that Plaintiff s bare assertions that she did not sign the loan
documents, and that she never received the student loans at issue are unsupported by
any concrete or specific evidence. Further, these claims were contradicted by ample
documentary evidence in the administrative record before the Department of Education.
Upon investigation, the Department of Education offered a rational connection between
the facts found and the decision. Its denial of Plaintiffs loan discharge request was not
11

*-

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 12 of 13

arbitrary, capricious, or an abuse of discretion or otherwise not in accordance with the
law.
2.

Monetary Damages

Plaintiff asks the Court for die return of all money taken from her tax returns.
Before seeking redress in federal court, a person who wishes to challenge her referral to
the TOP must first exhaust administrative remedies. United States v. Beulke, 892 F. Supp.
2d 1176, 1187 (D.S.D. 2012);?Here, ihere is no evidence in the record to suggest that
Plaintiff exhausted her administrative remedies.
Plaintiff also requests $10,000 in damages from the Department of Education (and
all other Defendants). She has not identified any source of law that would permit her to
recover monetary damages from the Department of Education. Her response in
opposition to summary judgment devotes considerable argument to the Freedom of
Information Act (FOIA). This case does not, under any reading of the Amended
Complaint, involve FOIA. Although courts are to liberally construe pro se filings, "[t]he
essence of liberal construction is to give a pro se plaintiff a break when, although he
stumbles on a technicality, his pleading is otherwise understandable." Hudson v. McHugh,
148 F.3d 859, 864 (7th Cir. 1998). This is not a case involving a mere technicality. It is a
fundamental tenant of jurisprudence that the United States, as sovereign, is immune from
suit absent a waiver of that immunity. United States v. Mitchell, 463 U.S. 206, 212 (1983).
Plaintiff does not identify any basis for a wavier of sovereign immunity for her claim for
monetary damages.

12

USDC IN/ND case l:18-cv-00348-HAB-SLC document 68 filed 08/27/19 page 13 of 13

CONCLUSION
For the reasons stated above, any claim for money damages against the
Department of Education is dismissed for lack of jurisdiction, as are any claims against
the Private Defendants for which there is no statutory cause of action. With respect to the
remaining claims, the Motion for Summary Judgment [ECF No. 57] filed by the Private
Defendants and the Motion for Summary Judgment [ECF No. 61] filed by the Department
of Education are GRANTED. The Motion for Summary Judgment contained in Plaintiff's
Opposition [ECF No. 64] is DENIED. The Clerk will enter judgment in favor of
Defendants and against Plaintiff.
SO ORDERED on August 27, 2019.
s/ Holly A. Brady
JUDGE HOLLY A. BRADY
UNITED STATES DISTRICT COURT

13

W1

USDC IN/ND case l:18-cv-00348-HAB-SLC document 69 filed 08/27/19 page 1 of 2
AO 450 (Rev. 01/09) Judgment in a Civil Action

United States District Court
for the

Northern District of Indiana
CONDRA L. SMITH,
Plaintiff,
v.

Civil Action No.:

1:18-cv-348 HAB SLC

US DEPARTMENT OF ED
also known as US Department of Education-,
USA FUNDS/NAVIENT
also known as USA Funds c!o Navient
doing business as Great Lakes
doing business as Ascendium Education Solutions Inc.;
GENERAL REVENUE;
PIONIER CREDIT RECOVERY,
Defendants.

JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
O the plaintiff_______
recover from the defendant
dollars $
j which includes prejudgment interest at the rate of
interest at the rate of
% along with costs.

the amount of
% plus post-judgment

d the plaintiff recover nothing, the action is dismissed on the merits, and the defendant
recover costs from the plaintiff_________________
X Other: Judgment is ENTERED in favor of Defendants, US Department of Ed, also known as
US Department of Education; USA Funds/Navient, also known as USA Funds c/o Navient doing
business as Great Lakes doing business as Ascendium Education Solutions Inc.; General
Revenue; and Pionier Credit Recovery, and against the Plaintiff, Condra L. Smith.

